Office of the Inspector General
United States Department of Justice




   ANALYSIS OF THE RESPONSE BY THE
    FEDERAL BUREAU OF PRISONS TO
    RECOMMENDATIONS IN THE OIG’S
APRIL 2004 REPORT ON THE SELECTION OF
MUSLIM RELIGIOUS SERVICES PROVIDERS




                                      July 2004
     Office of the Inspector General (OIG) Analysis of Response by the
  Federal Bureau of Prisons to Recommendations in the OIG’s April 2004
      Report on the Selection of Muslim Religious Services Providers

I. Introduction

The Office of the Inspector General (OIG) has analyzed the Federal Bureau of
Prisons’ (BOP) response to the recommendations contained in the OIG’s report
entitled, “A Review of the Bureau of Prisons’ Selection of Muslim Religious
Services Providers” (Report). The OIG Report, issued on May 5, 2004,
examined the recruitment, selection, screening, and supervision of individuals
who provide Islamic religious services to federal inmates. In our report, we
made 16 recommendations to help the BOP improve its process for selecting,
screening, and supervising Muslim religious services providers.

On June 7, 2004, the BOP submitted its response to the OIG’s
recommendations. In this analysis, the OIG evaluates the BOP’s response to
each of the recommendations. In general, we believe the BOP is taking
important steps to implement most of the OIG’s recommendations.

In the analysis below, we reproduce the text of the OIG recommendations,
followed by the text of the corresponding BOP responses, and then the OIG’s
analysis of each of these responses.* We are also attaching to this report the
BOP’s response.

Consistent with our normal practice, when specific action has been taken on a
recommendation to fully address the issues raised by the recommendation, we
consider the recommendation to be “closed.” Where the BOP has indicated a
plan or an intention to implement measures in the future to address the
recommendation, we consider the recommendation to be “resolved.” Where we
believe insufficient action has been taken to address the recommendation, we
consider the recommendation to be “unresolved.”

Recommendation 1
Status: Resolved

OIG Recommendation

The BOP should screen all religious services providers’ doctrinal beliefs.
Currently the BOP does not screen religious services providers’ religious and
doctrinal beliefs. Instead, it relies on the candidates’ endorsements to certify

* At the BOP’s request, we have “redacted” or blacked out several words or passages in the
BOP’s response and in our analysis of that response that the BOP believes relate to sensitive
security issues that should not be made public.
that they will minister to inmates of all faiths and provide appropriate religious
services in a prison setting. However, it is essential to the security of the BOP
that candidates who have extreme views and who pose a security threat not be
allowed into the prisons.

We recommend the BOP take steps to examine all chaplains’, religious
contractors’, and religious volunteers’ doctrinal beliefs to screen out anyone
who poses a threat to security. For example, the BOP could ask chaplains,
contractors, and Level 2 volunteers doctrinal questions in their interviews and
require them to submit a statement of faith with their applications. We
recommend that the BOP OGC examine this issue to determine what screening
procedures are legally permissible. The BOP’s screening of candidates’
religious and doctrinal beliefs should be for security purposes only, not to
assess the purity of candidates’ views or serve as an approval or endorsement
of their religious beliefs. The BOP also should develop a list of criteria to use
when screening individuals. At the least, this list should include: 1)
endorsement of violence, 2) support of terrorism or other anti-U.S. activities,
and 3) discrimination against other inmates or exclusion of other inmates from
religious services, whether based on race, religion, or other discriminatory
factors. In addition, the BOP should consider requesting that OPM’s
background investigations examine chaplains’ past statements and conduct in
religious communities.

BOP Response

The Bureau agrees with this recommendation. The BOP’s Office of General
Counsel (OGC) will examine the recommended screening procedures for
chaplains, contractors, and Level 2 volunteers to determine whether it is legally
permissible to screen the doctrinal beliefs of religious service providers. Upon
completion of the review, OGC will advise and counsel Chaplaincy Services,
Human Resource Management, and the Volunteer and Management Branch
regarding permissible screening procedures on chaplains, contractors, and
volunteers.

Additionally, the BOP has developed further screening criteria to be used
during the application process for chaplains, volunteers, and contractors. The
screening criteria will be used to ascertain the applicant’s position with respect
to:

•     endorsement of violence,
•     support of terrorism,
•     advocating the overthrow of the U.S. Government, or
•     any discrimination based upon race, color, religion, sex, or national
      origin (Title VII, Civil Rights Act of 1964)




                                        2
The Bureau will explore, and petition the Office of Personnel Management
(OPM) to expand background investigation questioning of chaplains through
use of the OPM SF86 form. Through use of this form the foreign activities,
associations, and loyalties of each chaplain candidate may be identified. This
investigation form is used exclusively for positions with a need for a higher
national security clearance classification. Currently, Bureau chaplains do not
require this level of clearance. The target date for completion of this petition is
September 30, 2004.

OIG Analysis

We believe the BOP’s response is a significant step toward fully implementing
this recommendation.

We agree with the BOP’s decision to have its Office of General Counsel (OGC)
review and advise what screening procedures are legally permissible for
chaplains, contractors, and Level 2 volunteers. To close this part of the
recommendation, please provide us by October 1, 2004, the OGC’s legal
determination and the additional screening procedures the BOP will implement
as a result of the OGC’s conclusions.

We also agree with the BOP’s development of further screening criteria to
ascertain applicants’ positions with respect to endorsing violence; supporting
terrorism; advocating the overthrow of the U.S. government; or discriminating
based on race, color, religion, sex, or national origin. However, it is unclear
from the BOP’s response what the new screening criteria will be or how it will
be applied during the selection process. To close this part of the
recommendation, please provide by October 1, 2004, the precise criteria that
will be used and an explanation of how it will be used during the selection
process.

Finally, we agree with the BOP’s decision to petition the Office of Personnel
Management (OPM) to expand background investigation questioning of
chaplains through use of OPM form SF86 to better discern their foreign
activities, associations, and loyalties. This action also addresses some of the
concerns underlying Recommendation 4. However, we encourage the BOP also
to petition OPM, as part of the background investigation, to examine chaplains’
past statements and conduct in religious communities. To close this part of
the recommendation, we request the BOP carefully consider this suggestion,
and provide us its response by October 1, 2004.




                                         3
Recommendation 2
Status: Unresolved

OIG Recommendation

The BOP should require all chaplain, religious contractor, and religious
Level 2 volunteer applicants to be interviewed by at least one individual
knowledgeable of the applicant’s religion. This individual could be a BOP
chaplain, BOP official, or member of an interfaith chaplain advisory board
created by the BOP for the purpose of interviewing chaplain candidates.
However, if the BOP creates an interfaith chaplain advisory board, members of
the board must be screened sufficiently to ensure they do not hold views
contrary to BOP policy, including advocating violence, supporting terrorism, or
discriminating against people of certain races or religions.

BOP Response

The Bureau agrees with this recommendation. All chaplains will be interviewed
by a subject matter expert (SME) knowledgeable of the applicant’s religious
beliefs and practices. A BOP chaplain from each faith will be selected and
assigned collateral duties as an SME. In addition to their regular duties, these
individuals will be utilized to recruit, screen, and interview prospective religious
service providers, develop training, and act as the Bureau’s resource on all
religious practices related to their specific faith.

New religious service providers will be interviewed by the institution chaplain
who will elicit information to assess whether or not the service provider is likely
to preach or provide instruction contrary to BOP policy; will advocate violence;
support terrorism; or discriminate against others because of their race or
religion. Interview responses that elicit questionable information will be
forwarded to the religion-specific SME and the local JTTF for review and
further vetting. Bureau staff in consultation with the warden will make the
final determination, in accordance with the FAR, based upon recommendations
of the chaplain and/or the SME. The target date for implementation of this
process is October 1, 2004.

OIG Analysis

We believe the BOP’s response is a positive step towards implementing this
recommendation, but it only partially addresses the concerns underlying our
recommendation.

Our review concluded that if a candidate for a religious services position was
not interviewed by an individual knowledgeable of the candidate’s religion, then
the interviewers may not be able to adequately assess the candidate’s
responses and whether the candidate likely would provide instruction contrary

                                         4
to BOP policy, advocate violence, support terrorism, or discriminate against
others because of their race or religion.

The BOP indicates that all chaplain candidates will be interviewed by a subject
matter expert (SME) of the candidate’s religion. This addresses our concerns
regarding the interviews of Muslim chaplain candidates. However, the BOP
proposes that an applicant for other religious services positions will be
interviewed initially by the institution chaplain, who may or may not be a
chaplain of the applicant’s religion. If the institution chaplain believes the
candidate’s responses are questionable, he or she will forward the responses to
the BOP’s SME for that candidate’s religion and to the Federal Bureau of
Investigation’s (FBI) local Joint Terrorism Task Force (JTTF) for further review
and vetting.

While we agree with the BOP’s plan to designate SMEs for religious services
providers’ religions, we believe that the SMEs, or other individuals
knowledgeable of the applicants’ religions, should be involved from the outset
in the interview and screening process of candidates for religious services
positions. Otherwise, it is less likely that an institution chaplain will be able to
assess from candidates’ responses whether they hold views contrary to BOP
policy, and thus unlikely that the institution chaplain will forward the
candidates’ responses to the SME for further review. For example, a candidate
who advocates violence for religious reasons likely will not answer affirmatively
the direct question, “Do you advocate violence for religious reasons?”
Therefore, we believe the BOP will have to discern candidates’ true beliefs from
nuances in their responses. We believe these nuances can best be identified
and assessed by an SME or other individual knowledgeable of the applicant’s
religion.

To close this recommendation, we request the BOP consider involving SMEs in
the initial interviews of contractors and Level 2 volunteers, and explain how the
SMEs for each faith group will complete their additional responsibilities while
maintaining their primary job duties. The BOP should provide its response by
October 1, 2004.

Recommendation 3
Status: Closed

OIG Recommendation

The BOP should require panel interviews for all religious contractors and
Level 2 volunteers. Because of the extensive contact contractors and
volunteers have with inmates, we recommend the BOP require contractor and
Level 2 volunteer applicants to be interviewed thoroughly by a panel consisting
of a chaplain, a security officer, and a human resources official from the BOP
institution where the applicants will work. The BOP likely will be able to

                                         5
screen contractors and volunteers more adequately if they are given more
thorough interviews such as the panel interviews given to chaplain candidates.

BOP Response

The Bureau does not agree with this recommendation. There are close to
10,000 level 2 religious volunteers and contractors, an average of
approximately 100 per institution. We do not have the resources necessary to
conduct panel interviews for the volume of volunteers and contractors who
provide religious services/programs in BOP institutions. We believe that the
increased scrutiny provided by the revised application materials, coupled with
the assistance of SMEs and review by the local JTTF will help to address the
same issues that could be derived from panel interviews.

OIG Analysis

Although the BOP has concluded that its current resources do not permit it to
conduct panel interviews for all religious contractors and Level 2 volunteers, we
agree that the steps it has taken in response to other recommendations will
help to address the concerns underlying this recommendation.

Recommendation 4
Status: Resolved

OIG Recommendation

The BOP should implement further security screening requirements for
religious services providers. The BOP should ask chaplains and religious
contractors whether they have ever received funds from foreign governments.
The BOP should ask contractors and Level 2 volunteers to report the
professional, civic, and religious organizations in which they hold membership.
In addition, the BOP should verify chaplains’ foreign travel to determine
whether they have spent a significant amount of time in a country that does
not have diplomatic relations or treaties with the United States.

BOP Response

The Bureau agrees with this recommendation. The Religious Services Branch
has revised the internal security documents for volunteers and contractors
(Attachments 1 and 2) to include information on the following:

•     professional affiliations;
•     civic affiliations;
•     religious affiliations;
•     foreign travel during the past five years; and
•     funding from foreign governments

                                        6
Responses provided by the prospective religious service providers will be one of
the factors used to determine whether or not to award the contract or admit
the volunteer. Unfamiliar religious affiliates will be forwarded to the local JTTF
for review and recommendation. Bureau staff in consultation with the warden
will make the final determination, in accordance with the FAR, based upon
recommendations of the local JTTF. The target date for implementation of this
process is October 1, 2004.

OIG Analysis

The OIG agrees with the steps the BOP has taken in response to this
recommendation. The revised internal security documents for religious
services volunteers and contractors will provide the BOP information about the
applicants’ foreign travel in the last five years; funding from foreign
governments; and professional, civic, and religious affiliations. In addition, the
BOP will work with local JTTFs to review the applicants’ information. We
believe these steps will assist the BOP in further screening applicants for
religious services positions. The BOP indicated in its response that this
enhanced screening process for contractors and volunteers will be implemented
by October 1, 2004. To close this recommendation, please provide us an
update on the status of implementation by October 1, 2004.

While the BOP’s response addresses our recommendation regarding further
security screening of contractors and volunteers, it does not address whether
chaplains will be required to report whether they ever have received funds from
foreign governments or whether the BOP will verify their foreign travel. It is
unclear whether these issues will be addressed during chaplains’ background
investigations (if the OPM agrees with the BOP’s request to use background
investigations to discern chaplains’ foreign activities, associations, and
loyalties – Recommendation 1). To close this part of the recommendation, we
request the BOP inform us by October 1, 2004, how it plans to determine
whether chaplain candidates ever have received funds from foreign
governments, and how it plans to verify chaplain candidates’ foreign travel.

Recommendation 5
Status: Resolved

OIG Recommendation

The BOP should encourage chaplains to seek information about contractor
and volunteer applicants from their local communities. We recommend
that the BOP encourage chaplains at institutions hiring contractors and
volunteers to seek information from their local communities about individuals
applying to be religious services contractors or volunteers.



                                        7
BOP Response

The Bureau agrees with this recommendation. Institution chaplains/program
managers will request a letter of reference from one professional or civic
organization, and one religious organization listed on the contractor/volunteer
security document. The names of the referring organizations will be forwarded
to the local JTTF for review and comment. Bureau staff in consultation with
the warden will make the final determination, in accordance with the FAR,
based on the information provided by the local JTTF. References will be
updated every five years. The target date for implementation of this process is
October 1, 2004.

OIG Analysis

Our concern underlying Recommendation 5 was that chaplains at individual
institutions could learn information about contractor and volunteer candidates
from their local communities that would not be apparent from the candidates’
applications or letters of endorsement. We believe the BOP has addressed this
concern by requesting letters of reference from one professional or civic
organization, and one religious organization listed by volunteers and
contractors on the revised internal security documents.

We further agree with the BOP’s decision to have the local JTTF review and
comment on the organizations that provide references. This will provide the
BOP with further information that could assist it in screening candidates for
security purposes.

It is not clear from the BOP’s response, however, whether the religious
organization that provides a letter of reference must be different from the local
organization that provides an endorsement of the candidate. We believe the
BOP should obtain letters of reference from two organizations in addition to the
endorsement from the local endorsing organization.

To close this recommendation, please clarify whether the BOP is requiring a
letter of reference from a religious organization in addition to the endorsement
from the endorsing organization. In addition, please provide us an update on
the status of implementation of this recommendation by October 1, 2004.

Recommendation 6
Status: Resolved

OIG Recommendation

The BOP should take steps to improve and increase the information flow
between the BOP and the FBI. Our review indicated that the information flow
between the FBI and the BOP regarding the radicalization and recruitment of
inmates needs improvement. While the recent creation of the Joint Intelligence
Coordinating Council (JICC) might help improve FBI-BOP information sharing
on inmate radicalization issues, we believe that additional steps need to be
taken to further improve information flow. We recommend that the BOP not
rely exclusively on the BOP detailee to the NJTTF or the creation of the JICC for
this information flow, but consider assigning a liaison to the FBI, like other
agencies do, to improve the exchange of information about the radicalization
and recruitment of inmates. In addition, we recommend that BOP officials
meet periodically with FBI officials regarding joint efforts to prevent the
radicalization of inmates.

BOP Response

The Bureau agrees with this recommendation. An additional staff member will
be assigned as liaison with the FBI. Additionally, periodic meetings have
already been initiated with the FBI to discuss efforts to prevent the recruitment
and radicalization of Bureau inmates. The target date for selection of the
additional liaison is October 1, 2004.

OIG Analysis

The BOP plans on assigning an additional staff member to serve as liaison to
the FBI to improve and increase the information flow between the BOP and the
FBI. In addition, the BOP has initiated periodic meetings with the FBI to
discuss efforts to prevent the recruitment and radicalization of inmates. To
close this recommendation, please provide us by October 1, 2004, an update
on the BOP’s efforts to select the additional FBI liaison, a detailed description
of the liaison’s responsibilities, and how the liaison’s work will improve
information sharing. In addition, please inform us by October 1 what meetings
have occurred between BOP and FBI officials regarding joint efforts to prevent
the radicalization of inmates.

Recommendation 7
Status: Resolved

OIG Recommendation

The BOP should more effectively use the expertise of its current Muslim
chaplains to screen, recruit, and supervise Muslim religious services
providers. The BOP should utilize its Muslim chaplains more effectively by
having them review the applications, references, and endorsements of potential
Muslim chaplains, contractors, and volunteers. We also recommend the BOP
consider having at least one Muslim chaplain serve on the interview panel for
Muslim chaplain candidates.




                                        9
BOP Response

The Bureau agrees with this recommendation. The Religious Services Branch
will announce, fill, and fund travel for a collateral duty Islamic SME position.
Duties will include recruitment, screening, and interviewing prospective Islamic
religious service providers, development of staff training modules, and other
duties as assigned. The target date for implementation of this process is
October 1, 2004.

OIG Analysis

The BOP plans to select an Islamic SME who will be involved in recruiting,
screening, and interviewing applicants for Muslim religious services provider
positions. We believe this process will address some of the concerns
underlying our recommendation.

However, we are concerned that assigning collateral Islamic SME duties to a
single chaplain could foreclose consultations with and participation by the
other chaplains. For example, in our review we found that one Muslim
chaplain knew BOP contractor Warith Deen Umar in a professional setting
several years before Umar joined the BOP, and the chaplain could have
informed the BOP that Umar did not hold mainstream Islam values had he
known at the time of Umar’s application that the BOP was considering hiring
him as a contractor. We believe that the BOP can benefit significantly from
the collective knowledge and experience of its current Muslim chaplains. We
also believe that the BOP’s procedures for the recruitment, screening, and
supervision of Muslim religious services personnel should draw on the
expertise of more than one of its chaplains.

To close this recommendation, please provide us by October 1, 2004, an
update on the status of the use of an Islamic SME in recruiting, screening, and
interviewing Muslim religious services providers, and whether the
responsibilities of the SME will include consultation with other BOP Muslim
chaplains.

Recommendation 8
Status: Unresolved

OIG Recommendation

The BOP should develop a strategy specifically targeted towards recruiting
Muslim religious services providers. Currently the BOP does not have
enough Muslim chaplains, contractors, and volunteers compared to the size of
its Muslim inmate population. As a result, inmates are leading religious
services, which presents prison security and national security concerns.
Recruiting qualified Muslim religious services providers could reduce inmate-
led services, Prison Islam, and radicalization. We recommend that the BOP
develop a strategy specifically for recruiting Muslim chaplains, contractors, and
volunteers. For this strategy, the BOP should consider having BOP personnel
reach out more to Muslim communities or enabling Muslim chaplains to spend
part of their work hours recruiting.

BOP Response

The Bureau agrees with this recommendation. The BOP includes in its specific
recruitment strategy for Islamic religious providers, the advertisement of
openings in various respected Islamic organizations, referrals by BOP Muslim
chaplains, and the application of age waivers to employ qualified Islamic
chaplains who exceed the statutory age requirements. The BOP also accepts
graduate level equivalencies to the Master of Divinity professional degree,
maintains cordial ties with Islamic academicians, and has developed a strategy
for allowing the appointment of Islamic chaplains without benefit of a national
endorsing body. (See the response to Recommendation 9 below.) We request
this recommendation be closed.

OIG Analysis

As evidence of having a strategy specifically targeted towards recruiting Muslim
religious services providers, the BOP states that it advertises vacancies with
Islamic organizations, receives referrals from BOP Muslim chaplains, waives
age requirements for qualified Muslim chaplain candidates, and accepts
graduate level equivalencies to the Master of Divinity professional degree
required for chaplain candidates. However, the BOP engaged in each of these
practices before our review. Moreover, these practices are not specific to
Muslim religious services providers, but are used by the BOP to recruit
chaplains of all faiths.

Our review found that despite these recruiting tactics, the BOP was unable to
recruit enough Muslim chaplains, contractors, and volunteers to serve its
Muslim inmate population. Our concern underlying this recommendation was
that the BOP should make special efforts to recruit Muslim religious services
providers in order to reduce its current deficit of Muslim chaplains. The
recruiting tactics the BOP lists in its response to date have been unsuccessful
at reducing the BOP’s lack of sufficient Muslim religious services providers.

To close this recommendation, we request that by October 1, 2004, the BOP
implement additional strategies to specifically recruit Muslim religious services
providers. For example, the BOP should consider having BOP personnel, in
addition to the Chief of the Chaplaincy Services Branch, reach out more
frequently to Muslim communities. The BOP also should consider enabling all
Muslim chaplains, not just the SME, to spend part of their work hours
recruiting Muslim religious services providers.

                                       11
Recommendation 9
Status: Resolved

OIG Recommendation

The BOP should consider implementing alternative endorsement
requirements for Muslim chaplains. Presently the BOP is experiencing a
hiring freeze on Muslim chaplains because it will not accept endorsements
from any Islamic organizations until it receives information on those
organizations from the FBI. In addition, no other national organization besides
the ISNA is authorized to endorse Muslim chaplains. Moreover, the BOP will
not hire chaplains who have endorsements from national organizations about
which the FBI has derogatory information. We recommend the BOP consider
developing alternative endorsing requirements for Muslim chaplains, such as
permitting endorsements from local or regional organizations in specific
situations.

BOP Response

The Bureau agrees with this recommendation. The Bureau has exempted
Islamic candidates from the required national endorsement. In lieu of the
endorsement, staff now request a letter of reference from a local religious
organization with which the Islamic candidate is affiliated. The letter of
reference and vetting form are in addition to the personal and professional
letters of reference currently required by policy. The local religious
organization providing a professional reference will be screened through the
local JTTF. The target date for implementation of the screening process is
October 1, 2004.

OIG Analysis

We believe the BOP’s response addresses the concerns underlying our
recommendation. By exempting Muslim chaplains from producing national
endorsements, the BOP opens opportunities for more Muslims to apply for
chaplain vacancies. Furthermore, by screening local Muslim endorsing
organizations through the local JTTF, the BOP can better determine whether
the organization poses a security concern or is connected to terrorism.

To close this recommendation, please provide us by October 1, 2004, an
update on implementation of the alternative endorsement process for Muslim
chaplain candidates.




                                      12
Recommendation 10
Status: Unresolved

OIG Recommendation

The BOP should evaluate the feasibility of having correctional officers
provide intermittent supervision to all chapels to supplement the
supervision provided by chaplaincy staff. As a further means to enhance
supervision of religious services, the BOP should evaluate the cost,
legality, and feasibility of audio and video monitoring to include all
worship areas and chapel classrooms. With few exceptions, individuals who
lead religious services in BOP facilities are subject to only limited supervision.
As a result, once contractors and volunteers gain access to BOP facilities,
ample opportunity exists for them to deliver inappropriate messages without
direct supervision from BOP staff members. Our fieldwork identified significant
differences in the level of support provided to chaplains by correctional officers.
We also observed that video coverage of BOP chapels varies by institution, and
that audio monitoring is not employed. We believe that the BOP should
evaluate options to make chapel supervision more thorough and consistent
Bureau-wide.

BOP Response

The Bureau agrees with this recommendation. Religious Services policy has
been changed to include a section on supervision of inmates (Attachment 3).
This section describes the levels of staff or electronic supervision required for:

•     inmate-led groups: ████████ ███████████;
•     programs led by Level I volunteers: ████████ ███████████;
•     programs led by Level II volunteers and contractors: ████████████
      ███████████;
•     special programs, e.g., choir presentations, seminars: ████████
      ███████████

We request this recommendation be closed.

OIG Analysis

The BOP has taken steps to make chapel supervision more thorough and
consistent BOP-wide by amending BOP Program Statement (P.S.) 5360 to
include a section specifying how inmates are to be supervised. We believe
these amendments address in part the concerns underlying our
recommendation.

However, the BOP’s response does not mention what steps will be taken to
ensure that correctional officers, not chaplains or other staff, are consistently

                                        13
involved in the supervision of Chaplaincy Service activities. As described in
our report and recommendations, our review identified significant differences
in the level of support provided to Chaplaincy Services by correctional officers.

In addition, the BOP has not addressed whether it intends to evaluate the
feasibility of introducing audio monitoring and additional video monitoring in
facility worship areas and chapel classrooms.

The amended P.S. 5360 is pending final approval and clearance before it
becomes official. To close this recommendation, please provide us by
October 1, 2004, an update on implementation of the amended P.S. 5360, ███
███ ███ ███████ ██ ██████ ████ ███████████ ████████ ███
████████████ ████████ ██ ███ ███████████ ██ ██████████ ██
██████████ ████████, ███ ███████ ███ ███ ███████ ██
████████ ███ ███████████ ██ ███████████ █████ ██████████
███ ██████████ █████ ██████████ ██ ███████ █████ ███ ██████
██████████.

Recommendation 11
Status: Resolved

OIG Recommendation

The BOP should limit and more closely supervise inmate-led religious
services. Inmates are radicalized primarily by other inmates. We do not
believe that it is appropriate for inmates to assume leadership positions in BOP
facilities, including the position of surrogate chaplain. We recommend that the
BOP take steps to reduce inmate-led religious services. For example, in
facilities where inmates presently are leading Juma services, the BOP should
evaluate the alternative of providing Internet video feeds to chapel areas for
Juma prayer by a BOP Muslim chaplain. The BOP also should consider
requiring inmate-led services to be monitored by staff constantly rather than
intermittently.

BOP Response

The Bureau agrees with this recommendation. The level of supervision of
inmate religious groups in secure facilities will follow guidelines for religious
programs involving worship, study, or meetings. ███ ██████████
█████████ ████████ ████ ███████ ████████ █████
███████████. BOP Islamic chaplains will provide Jumah resource materials.
Video/audio media will be authorized by the SME’s for study programming.
Internet video feeds to chapel areas for religious services are not feasible at this
time. The use of such feeds would not fulfill the religious obligation for Islamic
Jumah prayer services. The target date for full implementation of this process
is October 1, 2004.

                                        14
OIG Analysis

We believe the BOP’s response addresses our recommendation. To close this
recommendation, please provide us by October 1, 2004, an update on the
status of implementation of these new processes, and an explanation for why
the use of video feeds is not feasible at this time.

Recommendation 12
Status: Resolved

OIG Recommendation

The BOP should provide its staff with training on Islam. Supervisory
correctional officers and BOP managers advised us that many correctional
officers are not familiar with Islam, and that this lack of knowledge may limit
their ability to recognize radical Islamist messages that are inappropriate in
BOP facilities. At a minimum, we believe that the BOP should provide basic
training to its staff members who supervise Muslim religious services so that
they will be familiar with accepted prayer and service rituals, understand
Islamic terminology, and recognize messages that violate BOP security policy.

BOP Response

The Bureau agrees with this recommendation. All BOP captains will receive
the recommended training in August 2004. During this training they will be
provided with training materials for local use.

All institution staff will receive training during Annual Refresher Training in
2005, on the accommodation of Islamic beliefs and practices and appropriate
uses of Arabic in the correctional environment. During this training, all staff
will receive a ready reference glossary of common Islamic terminology used in
religious practice. The target date for completion of the staff training is
April 30, 2005.

OIG Analysis

We believe the BOP’s response addresses our recommendation. To close this
recommendation, please provide us by October 1, 2004, the training materials
given to all BOP captains at the August 2004 training, and an update on the
training the BOP plans to provide all staff at the Annual Refresher Training in
2005.




                                       15
Recommendation 13
Status: Resolved

OIG Recommendation

To improve supervision practices in facilities that do not have a Muslim
chaplain, the BOP should encourage staff members from those facilities to
consult with the BOP Muslim chaplains to address potential or actual
radicalization problems. Our review found that the BOP is not fully using the
expertise of its staff Muslim chaplains. These individuals have knowledge and
abilities that can and should be used to assist the BOP to address radical
influences.

BOP Response

The Bureau agrees with this recommendation. An Islamic chaplain will be
identified and trained as a SME for Islamic issues. All Bureau chaplains will
be notified and encouraged to utilize the expertise available through the SME.
The target date for selection of the Islamic SME is October 1, 2004.

OIG Analysis

We believe the BOP’s response addresses our recommendation. To close this
recommendation, please provide us by October 1, 2004, an update on the
status of the selection of the Islamic SME.

Recommendation 14
Status: Resolved

OIG Recommendation

The BOP should include in contractors’ SOWs the themes and topics on
which they should focus. The BOP should provide contractors guidance on
what they are to teach during religious services by including topics and themes
to be discussed with inmates in contractors’ SOWs. The SOWs also should
include specific things contractors are not allowed to say as part of their
messages, such as statements that support violence, denigrate the United
States, or disparage other inmates or other faith groups.

BOP Response

The Bureau agrees with this recommendation. Bureau chaplains will submit
general topics or themes to be included in contractors’ SOWs to the respective
SME. The SMEs will make the final recommendation for topics to be included
and/or excluded in the SOWs. At a minimum, future SOWs will specifically
indicate that statements that support violence, advocate the violent overthrow

                                      16
of the government of the United States, or disparage other inmates or other
faith groups are not allowed. The target date for initiation of this process is
October 1, 2004.

OIG Analysis

We believe the BOP’s response addresses our recommendation. To close this
recommendation, please provide us by October 1, 2004, an update on
implementation of the process for including SMEs in the development of
contractors’ SOWs.

Recommendation 15
Status: Resolved

OIG Recommendation

The BOP should conduct an inventory of chapel books and videos and re-
screen them to confirm that they are permissible under BOP security
policies. The BOP should consider maintaining a central registry of
acceptable material to prevent duplication of effort when reviewing these
materials. Of the institutions we visited, several did not have an inventory of
the books currently available to the inmates, and none of the collections had
been re-screened since the September 11 terrorist attacks.

BOP Response

The Bureau agrees with this recommendation. Staff will complete an inventory
of current print and audio-video materials and review the materials for
endorsement of violence, support for domestic or foreign terrorism, or any
discrimination based upon race, color, religion, gender or national origin. The
Religious Services Branch will provide an automated list of materials
appropriate for circulation in a correctional environment. Chaplains will be
advised to use the automated list for future library acquisitions. The target
date for completion of the inventory and central registry is June 1, 2005.

OIG Analysis

We believe the BOP’s response addresses our recommendation. To close this
recommendation, please provide us by October 1, 2004, an update on the
screening of print and audio-video materials and the creation of the inventory
and central registry.




                                        17
Recommendation 16
Status: Resolved

OIG Recommendation

BOP facilities should maintain a liaison with their local JTTF. BOP
facilities should be fully integrated into local counterterrorism initiatives. Our
review revealed that not all BOP facilities are working closely with their local
JTTF.

BOP Response

The Bureau agrees with this recommendation. Each institution will be
reminded of the requirement to develop liaison efforts with their local JTTF and
will be required to certify in writing this has been accomplished. The target
date for submission of the certification documentation is October 1, 2004.

OIG Analysis

We believe the BOP’s response addresses our recommendation. To close this
recommendation, please provide us by October 1, 2004, an update on
institutions’ submissions of the certification documentation.




                                        18
